June 28, 2000




MEMORANDUM FOR:                  ANDREW J. SAMET
                                 Deputy Under Secretary for
                                  International Labor Affairs

                                        /s/
FROM:                            JOHN J. GETEK
                                 Assistant Inspector General
                                  for Audit

SUBJECT:                         WORLDWIDE STRATEGIES, INC.
                                 Letter Report No. 18-00-007-01-070

The Office of Inspector General (OIG) completed a survey of Worldwide Strategies, Inc.’s (WSI)
contract (No. J-9-K-7-0020) with the U.S. Department of Labor’s Bureau for International Labor
Affairs (ILAB). The purpose of the survey was to evaluate WSI’s and ILAB’s administration of the
contract with the intent of determining whether any changes were needed that would affect this and
subsequent ILAB technical assistance contracts. In as much as the services required by the contract
are delivered overseas, we did not evaluate program results.

This contract is for conducting technical assistance projects in Central and Eastern European
developing countries and is in its fourth and final year. ILAB is in the process of issuing a Request for
Proposal for this same service.

No administrative deficiencies were detected at WSI. We did observe areas where we suggest
changes to ILAB’s processes. These were in the areas of invoicing, contract management and
reporting and are discussed later in this report. These suggestions, we believe will enhance efficiency
while maintaining effective internal control.

                        INTRODUCTION AND BACKGROUND

The Bureau of International Labor Affairs - ILAB carries out the Department of Labor’s (DOL)
international responsibilities under the direction of the Deputy Under Secretary for International Labor
Affairs, and assists in formulating international economics, trade, and immigration policies affecting
American workers. ILAB implements these objectives through several distinct activities, including the
coordination and implementation of technical assistance programs in developing countries for the
purpose of strengthening labor standards and social safety net programs. ILAB uses the term “bilateral
technical assistance” to describe direct government-to-government efforts to promote the increased
effectiveness of economic development activities and social safety net programs.
ILAB Bilateral Technical Assistance Program - Since 1990, ILAB has conducted bilateral
technical assistance projects in Central and Eastern Europe. These projects have been supported by
the United States Agency for International Development (USAID) through USAID SEED (Support for
East European Democracy) funds, which are transferred to DOL/ILAB through an Interagency
Agreement.

To provide this assistance, ILAB utilizes experts in the fields of employment and unemployment
services, self-employment and entrepreneurial skills development, vocational counseling and
development, occupational safety and health issues, labor management relations, social sector
restructuring, social insurance development, vocational skills development training, and labor marketing
analysis.

Worldwide Strategies, Inc. - WSI was incorporated in 1985 as Western States Multi-Service
Corporation, a for-profit company whose original purpose was to manage medical and rural health
services in the western United States. In May 1999, the name was changed to its present name,
Worldwide Strategies, Inc., to more accurately reflect the work of the company.

WSI is a wholly-owned subsidiary of Mountain States Group, Inc. (MSGI), a private,
not-for-profit corporation which is involved in a variety of activities in Idaho, including refugee
resettlement, mental health, access to rural health care, childhood development and HIV AIDS
prevention. MSGI receives funding for its nonprofit activities from a variety of sources, including the
State of Idaho. WSI was formed to give its parent company the ability to compete for small business
opportunities in which the parent company had experience and expertise.

ILAB’s Contract With WSI For Technical Assistance Services - In 1996, DOL’s Office of
Administration and Management (OASAM), Office of Procurement, issued on ILAB’s behalf a
Request for Proposal (RFP) to deliver technical assistance services to Central and Eastern Europe.
The competitively procured contract was awarded to WSI in January 1997. The contract was for 1
year with three 1-year options. DOL has renewed each option year and the contract is scheduled to
expire in January 2001.

The purpose of the contract was to provide highly qualified experts to conduct work on SEED
technical assistance projects. The contract required the experts to perform: (1) policy and program
analysis, (2) project proposal writing, (3) implementation plan design and update,
(4) training design and delivery, (5) advisory and consultation services, and (6) monitoring and
reporting.

The funding for this contract was anticipated to be about $7.2 million, with the funds being obligated as
each project was approved. As of April 18, 2000, DOL has reimbursed WSI $4.6 million for its
services. Most of WSI’s expenses have been for salaries, travel, and contractual services.



                                                    2
                  OBJECTIVES, SCOPE AND METHODOLOGY

Our survey objective was to gather and evaluate information for the period January 27, 1997 through
April 3, 2000, to determine whether the administration of the WSI contract was being performed in the
most cost effective manner. We did not evaluate the program results because these services were
delivered overseas.

On April 3, 2000, we met with the Director, Office of Foreign Relations, to inform him of our
impending survey. On April 18, 2000, we met with the Contracting Officer’s Technical Representative
to understand how he managed the contract. We conducted our fieldwork from April 24 to May 5,
2000, at WSI headquarters in Boise, Idaho, where we held discussions with WSI staff and reviewed
documentation in support of their claimed costs and their internal control systems. We held an exit
conference with these same officials on May 5, 2000, and with ILAB officials on May 30, 2000, to
discuss the results of our survey.

Our work was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.

                                     SURVEY RESULTS

The Structural Revision to ILAB’s Bilateral Technical Assistance Program Did Not Include a
Corresponding Revision to Certain Administrative Requirements and Placed an Unnecessary
Burden on Both ILAB and WSI in the Areas of Invoicing, Contract Management and
Reporting - With the inception of USAID SEED funds, ILAB envisioned one to four bilateral
technical assistance projects each month. The contractor’s administrative requirements were designed
to support this type of project and each project was to be initiated and managed through the issuance of
a task order.

Subsequently, ILAB concluded that the projects were implemented at too high a level in the developing
country’s political structure and, therefore, the projects were less successful in restructuring localized
economic institutions than had been anticipated. To improve desired outcomes, in January 1998, ILAB
adopted the USDOL Adjustment Model, an integrated approach to help workers, enterprises and
communities impacted by economic restructuring.
The Model targets basic labor market services on a community level. The intent is to utilize the
economic restructuring of a single community as a catalyst for restructuring other communities, with the
overall objective of economically restructuring the entire country. A primary component of the Model
is its emphasis on a minimum 18-month project, with each project being supported by a contractor who
must establish an office in that country for the duration of the project.

We believe that this revision to the structure of the program, without a corresponding revision to certain
administrative requirements, has placed an unnecessary burden on both ILAB and the contractor. We
noted the following:

                                                    3
  Contractor Invoicing

WSI typically has 12-14 task orders operating concurrently, supporting activities of 4 or 5 technical
assistance projects in the developing countries. To claim reimbursement for costs, WSI submits a
monthly invoice for each task order. Attached to each invoice are the original and two copies of all
receipts, a requirement imposed on WSI by ILAB.

Upon receipt of the invoices, the COTR: (1) compares the labor hours submitted on the invoice to that
on the time sheets, (2) verifies that the appropriate travel authorizations exist, that the airline ticket is
attached, and that the rate is reasonable, (3) verifies that hotel, meal and incidental costs are within the
allowable per diem rate, and that there is a hotel receipt, and
(4) verifies that receipts exist for equipment and other charges and that they are within the allowable
limits. After the COTR certifies that the documentation supports the invoice, he submits the original
invoice to OASAM for payment.

We believe ILAB can maintain the same effectiveness in its oversight abilities by requiring WSI (and
future contractors) to simply retain the receipts for future audits. When the COTR determines there is a
need to review an invoice cost he can either require WSI to submit a copy of the supporting
documentation, or visit WSI to audit the invoice(s). Therefore, we suggest ILAB discontinue requiring
the contractor to submit receipts with its requests for reimbursement.


  Contract Management

The annual budget for each ILAB project ranges from $650,000 to $1 million. Each project is funded
by several task orders. To maintain control over its funds, ILAB placed an “unofficial” funding ceiling
of $100,000 - $150,000 on each task order and contract cost modification. This ceiling was
appropriate when WSI’s task orders were limited to short-term technical assistance projects.
However, now that WSI is required to establish permanent overseas offices in each developing
country, this ceiling is no longer practical. The change in program emphasis to long-term technical
assistance has forced WSI to fund 12-14 activities concurrently. Since ILAB requires a separate task
order for each technical assistance activity under each project, this places an administrative burden on
both WSI and ILAB.

Normally, 4 to 8 weeks elapse from the time a contract cost modification is submitted by WSI to the
time the approved modification is received back from DOL. The combination of the number of task
orders and contract modifications in process, and ILAB’s policy of limiting the amount of funding
available to the contractor, has resulted in contract modifications being in a continual state of
preparation and approval. This is a burdensome funding process for both the contractor and ILAB.




                                                      4
We suggest that ILAB (1) consolidate all technical assistance projects in each developing country under
one task order, when appropriate, and (2) fund these projects to at least 50 percent of their
completion. This should result in a streamlined and more efficient contract management process.


  Contractor Reporting

WSI’s contract requires that it submit a monthly progress report, with a program and financial
management section, for each task order. Additionally, ILAB requires separate (1) reports for its
Office of Foreign Relations, and (2) “local economic development” (LED) reports. The progress
report is a summarization of individual consultant reports provided to the contractor, which must be
consolidated and reformatted prior to submission to ILAB. The LED report originates from WSI’s
project office and must also be reformatted by the contractor prior to submission to ILAB. The
progress reports and LED reports must be replicated for each developing country and are received by
ILAB about 4-6 weeks after occurrence of the events which are reported.

The Central and Eastern European projects are monitored by a combination of USAID missions,
contractor headquarters personnel, and the ILAB national office. There also are frequent telephone
and electronic communications between WSI project offices and these entities. Furthermore, WSI
must report to USAID. It accomplishes this by providing monthly narrative reports to USAID Eastern
European mission offices. Therefore, information reported in monthly progress reports is outdated by
the time it is received by ILAB.

Simplifying this reporting process should result in greater efficiencies both to ILAB and its contractors.
To ensure that ILAB receives information on the progress of these projects in a timely manner, we
suggest the following: (1) ILAB should consider utilizing electronic reporting for present and future
contractors (2) for future Requests for Proposal, ILAB should identify software that will ensure
compatibility between ILAB’s and the contractor’s computer systems for the purpose of electronic
reporting, and (3) eliminate the financial portion of the monthly progress reports, as it is merely a
duplication of financial information already received through the submission of invoices.


                -                -               -                -                -


We appreciate the cooperation and assistance provided by your staff and WSI staff during our survey.
A response to this report is not necessary; however, if you or your staff has any questions concerning
this report, please contact me on 219-8404. As a courtesy, we are providing a copy of this report to
WSI.




                                                     5
cc:   OIG

      Joseph Ganci
      Director, DAO

      ILAB

      James Perlmutter, Director
      Office of Foreign Relations

      Lucien Gatewood
      Contracting Officer’s
       Technical Representative

      Sidney Smith, Deputy Director
      Office of Foreign Relations

      OASAM

      Daniel Murphy, Director
      Procurement Services Center

      WORLDWIDE STRATEGIES, INC.

      Virginia Stacey
      Director




                                      6
